audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the San Diego Police Department
	California
GR-90-99-016
May 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the San Diego Police Department (SDPD).  The purpose of the grants is to enhance community policing.  The SDPD was awarded a total of $13,736,116 to hire 80 new police officers and redeploy the equivalent of 320.2 existing full-time officers from administrative duties to community policing.

	We reviewed the SDPD's compliance with eight essential grant conditions.  We found the SDPD's practices for budgeting, hiring, meeting the local match, preparing reimbursement requests, redeployment, retention, and implementation of community policing to be acceptable.  However, we found that several status reports were either not accurate, not timely, or had not been filed.

	These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in
Appendix I.